        Fiscal Year 2012
 Inspector General Statement
             on the
Social Security Administration’s
    Major Management and
   Performance Challenges
          A-02-13-13041




          November 2012
                                          November 8, 2012

The Honorable Michael J. Astrue
Commissioner

Dear Mr. Astrue:

The Reports Consolidation Act of 2000 (Pub. L. No. 106-531) requires that Inspectors General
provide a summary and assessment of the most serious management and performance challenges
facing Federal agencies and the agencies’ progress in addressing them. This review is enclosed.
The Reports Consolidation Act requires that the Social Security Administration (SSA) place the
final version of this Statement in its annual Performance and Accountability Report.

In Fiscal Year (FY) 2012, we continued our focus on most of the management and performance
challenges from the previous year, but we added one additional challenge and deleted another.
Specifically, we added “Strengthen Strategic and Tactical Planning” and deleted “Implement the
American Recovery and Reinvestment Act of 2009 Effectively and Efficiently.” The challenges
are listed below.

• Reduce the Hearings Backlog and                        • Invest in Information Technology
   Prevent its Recurrence                                    Infrastructure to Support Current and
                                                             Future Workloads
• Improve the Timeliness and Quality of
   the Disability Process                                • Strengthen the Integrity and Protection
                                                             of the Social Security Number
• Reduce Improper Payments and Increase
   Overpayment Recoveries                                • Improve Transparency and
                                                             Accountability
• Improve Customer Service
                                                         • Strengthen Strategic and Tactical
                                                             Planning

We used multiple sources when determining the status of each of the identified challenges. For
example, we used statistics reported by SSA and Office of the Inspector General audits of SSA’s
operations. We also used the FY 2012 independent auditor’s report, which contained the results
of SSA’s financial statement audit. This year’s report concluded that SSA had a material
weakness related to its information security and a significant deficiency related to its monitoring
activities. These issues are discussed in detail in the enclosure.

My office will continue focusing on these issues in FY 2013. We will also continue assessing
SSA’s operations and the environment in which SSA operates to ensure our reviews focus on the
most salient issues facing the Agency.




              WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                        6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
Page 2 - The Honorable Michael J. Astrue


I look forward to working with you to continue improving the Agency’s ability to address these
challenges and meet its mission efficiently and effectively.

                                            Sincerely,



                                            Patrick P. O’Carroll, Jr.
                                            Inspector General

Enclosure
  Reduce the Hearings Backlog and Prevent its Recurrence
CHALLENGE: While the Social Security Administration (SSA) has a plan to eliminate the
hearings backlog by 2013, the number of pending cases has increased, and the average
processing time remains above the goal of 270 days. In addition, there is a growing concern
with administrative law judges’ (ALJ) adherence to SSA’s policies as well as the variation in
their decisional outcomes.

Hearings Backlog: SSA’s first goal in its Fiscal Year (FY) 2008-2013 Agency Strategic Plan
was to “. . . eliminate our hearings backlog and prevent its recurrence.” SSA has directed
increased resources to improve hearing timeliness and process more hearings. Since FY 2008,
average processing time dropped by about 31 percent, from an average of 514 days in FY 2008
to an average of 353 days at the end of FY 2012. During this time, ALJ productivity increased
from 2.30 dispositions per day per ALJ to 2.41.

While timeliness and ALJ productivity have improved, an increased number of applicants has led
to an increase in the hearings backlog. By the end of September 2012, the backlog stood at about
817,000 cases, an increase of almost 30,000 cases since the start of the FY. In the Agency
Strategic Plan Fiscal Years 2008-2013, SSA established a goal to reduce the pending cases to
about 466,000 and average processing time to 270 days. In his July 2011 statement to Congress,
the SSA Commissioner stated the Agency focus was on the 270-day average processing time,
stating, “What matters most to someone waiting for a decision is how quickly we decide his or
her case, not how many other people are also waiting for a hearing.”

Video Teleconferencing: In our June 2012 report, Current and Expanded Use of Video
Hearings, we highlighted benefits related to video teleconferencing (VTC) at SSA, while noting
that VTC decreased ALJ travel to remote sites. Nonetheless, we noted that the Agency could
still take additional steps to expand its use, by placing VTC equipment into field offices, law
offices, and government sites. In addition, the relocation of unused equipment and expanded use
of desktop video units could increase the available capacity of video hearings.

National Hearing Centers: To eliminate the backlog and prevent its recurrence, the Agency
has used automation and implemented a number of business processes to increase adjudicatory
capacity and efficiency. One of these initiatives, the video-only National Hearing Centers
(NHC), is designed to reduce case processing time by increasing adjudicatory capacity and
efficiency with a focus on an electronic hearings process. In our April 2012 audit of The Role of
National Hearing Centers in Reducing the Hearing Backlogs, we noted that NHCs provided the
Agency with additional flexibility by transferring older cases from some of the most heavily
backlogged hearing offices, thereby reducing their backlogs and processing times. However,
NHCs face their own challenges, including lack of video capacity at claimant locations,
scheduling difficulties, and claimants’ reluctance to participate in video hearings.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                       1
Scheduling Hearings: In our August 2012 report, Office of Disability Adjudication and
Review’s Process for Scheduling Hearings When Cases are in “Ready to Schedule” Status, we
identified various obstacles that impacted the hearing office staff’s ability to timely schedule
hearings. Most notably, staff cited claimant representative availability as the greatest obstacle
for timely scheduling hearings. To a lesser degree, hearing office staff cited ALJ availability as
another key obstacle.

ALJ Performance: Congress continues to express concerns about ALJ adherence to the
Agency’s policies and procedures while demonstrating good stewardship of taxpayer dollars. In
our February 2012 report, Oversight of Administrative Law Judge Workload Trends, we
identified ALJs who were significant outliers in terms of their productivity or decisional
allowance rates and noted the Agency needed to ensure outlier ALJs were monitored and their
underlying work processes were periodically reviewed. In a related March 2012 report, The
Social Security Administration’s Review of Administrative Law Judges Decisions, we noted that
while SSA has the authority to review ALJ decisions, the Agency must work within legal
restrictions when conducting its reviews.

Agency Actions
The Agency continues to implement the Commissioner’s plan to eliminate the backlog by

•   expanding the list of diseases and conditions covered under compassionate allowances;
•   increasing adjudicatory capacity through additional hiring and the use of senior attorney
    adjudicators;
•   reducing the volume of aged cases in the hearings pipeline; and
•   improving hearing efficiency with automation and improved business processes, such as the
    expansion of video hearings.

In FY 2012, SSA hired 147 new ALJs and adjudicated approximately 37,000 cases using the
senior attorney adjudication program. The Agency held almost 154,000 video hearings
nationwide in the FY, an increase of almost 24,000 video hearings when compared to FY 2011.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                       2
Improve the Timeliness and Quality of the Disability Process
CHALLENGE: SSA needs to address millions of initial disability and reconsideration
claims and it continues to have backlogs of initial disability claims and continuing disability
reviews (CDR).

Disability Claims Backlog: Over the past 2 years, SSA has received a large influx of initial and
reconsideration claims. More specifically, it received over 3.3 million initial and
836,000 reconsideration claims in FY 2011. In addition, it received about 3.2 million initial and
over 832,000 reconsideration claims in FY 2012. In addition, SSA has a large number of initial
claims pending completion. In 2012, SSA had over 707,000 initial disability claims pending,
similar to the 720,000 initial disability claims that were pending at the end of FY 2011.

DDS Personnel Issues: Some disability determination services (DDS) are facing high attrition
rates, hiring freezes, and employee furloughs, all of which affect SSA’s ability to process the
disability workload. With hiring freezes, DDSs are not allowed to replace the lost staff. As of
September 2012, four States were still furloughing DDS employees (Nevada, New York,
Oregon, and Washington).

CDR Backlog: In our March 2010 report on Full Medical Continuing Disability Reviews, we
reported that SSA estimated a backlog of over 1.5 million medical CDRs at the end of FY 2010.
As a result, we estimated that from Calendar Years (CY) 2005 through 2010, SSA made benefit
payments of between $1.3 and $2.6 billion that it could have avoided had the medical CDRs in
the backlog been conducted by State DDSs when they became due. SSA had a backlog of
1.3 million medical CDRs at the end of FY 2012.

Agency Actions
SSA’s Strategy: In November 2010, SSA released its Strategy to Address Increasing Initial
Disability Claim Receipts (Strategy) to reduce the initial claims backlog to a pre-recession level
of 525,000 by FY 2014. The multi-year Strategy includes

•   increasing staffing in the DDS and Federal disability processing components;

•   improving efficiency through automation;

•   expanding the use of screening tools to assist in identifying claims likely to be allowed; and

•   refining policies and business processes to expedite case completion.

As part of the Strategy, SSA provided funding for States to hire additional DDS employees.
SSA also created centralized units, called Extended Service Teams, in Arkansas, Mississippi,
Oklahoma, and Virginia. The Teams assist the States by taking claims from those with the
highest pending levels. SSA also increased staffing levels in the Federal disability processing
components that support the DDSs—hiring about 237 additional employees.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                         3
In total, SSA hired more than 2,600 DDS employees in FYs 2009 and 2010. However, in
FY 2011, SSA froze DDS hiring and did only limited critical hiring in FY 2012. As a result,
SSA lost over 1,200 DDS employees in FY 2011 and 1,025 additional DDS employees in
FY 2012.

With the loss of DDS employees and a high level of initial disability claims receipts anticipated
in FY 2013, SSA does not expect to achieve its initial claims pending level goal of 525,000 by
FY 2014. In fact, in FY 2013, SSA expects that pending initial disability claims will rise to over
1.1 million. In FY 2013, we plan to initiate a review of the actions SSA is taking to reduce the
initial disability claims backlog.

Disability Case Processing System: The Agency is developing a Disability Case Processing
System (DCPS), which is 1 common system that will replace the 54 different existing systems
that support the DDSs. DCPS will integrate case analysis tools and health information
technology (IT). A common case processing system will help SSA to timely distribute policy
changes. Per SSA, it will provide consistent case processing abilities between the DDSs, which
should have a positive effect on processing times and the consistency of disability decisions.
SSA planned to test the initial version of DCPS in five locations, beginning with the Idaho DDS
in September 2012. SSA expects to complete the implementation of DCPS by the end of
FY 2016.

Cooperative Disability Investigations: We have continued working with SSA to address the
integrity of the disability programs through Cooperative Disability Investigations (CDI). The
mission of the 25 CDI units is to obtain evidence that can resolve questions of fraud in SSA’s
disability claims. The program is managed jointly by SSA’s Offices of Operations and
Disability Programs and the Office of the Inspector General (OIG). Since its inception in
FY 1998 through FY 2012, the program efforts have resulted in $2.2 billion in projected savings
to the Disability Insurance and Supplemental Security Income (SSI) programs and over
$1.4 billion in projected savings to non-SSA programs.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                     4
                Reduce Improper Payments and Increase
                       Overpayment Recoveries
CHALLENGE: SSA is one of the top Federal agencies with a high amount of improper
payments. In FY 2011, the last FY for which data were available, SSA reported about $8 billion
in over- or underpayments, and the Agency incurred an administrative cost of $0.07 for every
overpayment dollar it collected. Further, SSA needs to adhere to requirements in Executive
Order 13520 – Reducing Improper Payments and Eliminating Waste in Federal Programs – and
the Improper Payments Elimination and Recovery Act of 2010 (IPERA) (Pub. L. No. 111-204) to
address improper payments.

SSA is responsible for issuing over $700 billion in benefit payments annually to about 60 million
people. Given the large overall dollars involved in SSA’s payments, even the slightest error in
the overall process can result in millions of dollars in over- or underpayments.

Improper Payment Rates: Workers, employers, and taxpayers who fund SSA’s programs
deserve to have their tax dollars effectively managed. As a result, SSA must be a responsible
steward of the funds entrusted to its care and minimize the risk of making improper payments.
SSA strives to balance its service commitments to the public with its stewardship
responsibilities. However, given the size and complexity of the programs the Agency
administers, some payment errors will occur.

For example, according to SSA, in FY 2011:

• The Old-Age, Survivors and Disability Insurance (OASDI) overpayment error was
   $2.3 billion or 0.3 percent of program outlays, and the underpayment error was $1 billion or
   0.1 percent of program outlays.

• The SSI overpayment error was $3.8 billion or 7.3 percent of program outlays, and the
   underpayment error was $1 billion or 1.8 percent of program outlays.

For FYs 2012 and 2013, SSA’s goal was to maintain OASDI payment accuracy at 99.8 percent
for both over- and underpayments; and for SSI, the Agency’s goal was to achieve an
overpayment accuracy rate of 95 percent and an underpayment accuracy rate of 98.8 percent.

Executive Order 13520 and IPERA: In November 2009, the President issued Executive
Order 13520 on reducing improper payments; and in March 2010, the Office of Management and
Budget (OMB) issued guidance for implementing it. Also, in July 2010, IPERA was enacted.
OMB issued guidance on implementing IPERA in April 2011. As a result, all agencies with
high-risk programs—those with significant improper payments—are required to intensify their
efforts to eliminate payment errors. OMB designated SSA’s programs as high-risk.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                    5
Overpayment Recoveries: Once SSA determines an individual has been overpaid, it must
recover any overpayment. SSA reported that the percent of debt (for example, overpayments)
collected decreased from FY 2011 to FY 2012. Specifically, SSA reported that it collected
22.9 percent of debt in FY 2011 and 22.1 percent in FY 2012. Additionally, the percent of debt
collected in FY 2012 is lower than the percent collected in each of the previous 4 FYs.

Agency Actions
Improper Payment Causes: One of the major causes of improper payments in the OASDI
program is benefit computation errors. SSA has developed automated tools to address the more
troublesome computation issues. Another major cause of improper payments in the SSI program
is recipients’ failure to provide accurate and timely reports of new or increased wages. In
response, SSA developed a monthly wage reporting system incorporating touch-tone and
voice-recognition telephone technology. SSA also implemented its Access to Financial
Institutions project to reduce SSI payment errors by identifying undisclosed financial accounts
with balances that place recipients over the SSI resource limit.

Debt Collection Tools: SSA uses a variety of methods to collect the debt related to
overpayments. Collection techniques include internal methods, such as benefit withholding and
billing with followup. In addition, SSA uses external collection techniques authorized by the
Debt Collection Improvement Act of 1996 (Pub. L. No. 104-134) for OASDI debts and the Foster
Care Independence Act of 1999 (Pub. L. No. 106-169) for SSI debts. These debt collection tools
include the Treasury Offset Program, credit bureau reporting, administrative wage garnishment,
and Federal Salary Offset. In FY 2012, SSA recovered $3.7 billion in overpayments at an
administrative cost of $0.07 for every dollar collected.

CDRs: The CDR is a powerful tool for reducing improper payments. Through completion of
CDRs, SSA periodically verifies that individuals are still disabled and eligible for disability
payments. Available data indicate that SSA saves about $9 for every $1 spent on CDRs,
including Medicare and Medicaid program effects.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                     6
                            Improve Customer Service
CHALLENGE: Many factors challenge SSA’s ability to provide quality customer service to
the public, including budget constraints, growing workloads, changing customer expectations,
an aging workforce, and shifting demographics.

Increased Workload with Reduced Staff: Each day, almost 182,000 people visit SSA field
offices and more than 445,000 people call the Agency for a variety of services, such as filing a
claim, updating information, and asking questions. SSA is also receiving increasing numbers of
claims. The Agency completed approximately 3.2 million disability claims and 5 million
retirement and survivor and Medicare claims in FY 2012.

The projected retirement of its employees continues to present a challenge to SSA’s customer
service capability. SSA estimates that 45 percent of its employees, including 60 percent of its
supervisors, will be eligible to retire by FY 2020. This loss of institutional knowledge may
adversely affect SSA’s ability to deliver the quality service the public expects.

Changing Customer Expectations: SSA is also finding that technology is rapidly changing
and the public expects to complete more business online. Internet services and the use of mobile
devices and social media continue to increase. At the same time, the Nation is becoming more
diverse. Today, minorities comprise approximately 30 percent of the population, and the Census
Bureau estimates that minorities will make up over half of the population by 2050. As SSA
enhances its service delivery strategies, it must consider the increasing multilingual and
multicultural population it serves.

Budget: SSA stated that the current level of funding would lead to a loss of employees. In
FY 2012, it lost over 1,600 employees. Consequently, the Agency projected its national
800-number service will deteriorate significantly because it will not have a sufficient number of
employees to answer calls. Busy signals rose from 3 percent in FY 2011 to 4.6 percent in
FY 2012. The average speed to answer also increased from 180 seconds in FY 2011 to
294 seconds in FY 2012. Additionally, SSA estimates it will be unable to complete all its
post-entitlement work. The Agency believes its inability to handle this work timely could result
in improper payments and delays in collecting overpayments. Further, to reduce administrative
costs and direct resources to meet growing public service expectations, SSA consolidated
20 field offices in FY 2012. SSA will continue evaluating its facilities to determine whether
additional consolidations are necessary.

Direct Deposit: SSA uses direct deposit for 94 percent of Social Security benefits and
83 percent of SSI payments. In October 2011, we began tracking allegations that indicated
individuals other than the beneficiaries or their representatives had redirected benefit payments
away from the beneficiaries’ bank accounts. As of the end of FY 2012, we had received over
22,000 reports concerning direct deposit changes to a Social Security beneficiary’s record.

Representative Payment Program: Providing oversight to ensure representative payees
properly manage the Social Security benefits of vulnerable beneficiaries is a critical customer
service performed by SSA. SSA appoints representative payees to receive and manage the
benefits of beneficiaries who are incapable of managing or directing the management of their


FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                      7
finances because of their age or mental or physical impairment. Based on data from SSA’s
Representative Payee System, there were approximately 5.9 million representative payees as of
December 2011. The Office of Research and Statistics reports these payees served
approximately 8.4 million beneficiaries and managed about $72 billion in annual benefit
payments.

Our reviews continue to identify problems with SSA’s Representative Payment Program. We
found SSA did not always take appropriate actions for individual representative payees who
misused benefit payments. For example, SSA did not document negligence decisions, refer
instances of misuse to the OIG, follow policy regarding the retention of payees who misuse
beneficiary funds, or record misuse-related data accurately in its system.

We continue finding problems with representative payees who do not properly use and account
for benefits. For example, we identified an organizational representative payee who improperly
transferred about $800,000 from beneficiary accounts into its own business operating account to
cover its cash flow shortages. Additionally, we identified large-volume, fee-for-service
representative payees who did not always have the resources, procedures, and controls in place to
ensure they fulfilled their representative payee responsibilities.

Agency Actions
SSA has implemented various initiatives to improve customer service, such as developing a
customer service plan, clarifying correspondence, expanding the use of online services,
improving telephone and field office services, and improving the Representative Payment
Program.

Customer Service Plan: In FY 2012, SSA published its Customer Service Plan, which outlines
its strategy to improve service delivery quality, speed, and efficiency. The plan highlights the
Agency’s video hearings initiative, which uses technology to minimize costs and expand
customer access. Along with video technology, the Agency plans to improve its telephone and
walk-in services, enhance online services, and enhance security for Internet access to
personalized information.

Correspondence: SSA mails approximately 200 million notices to the public each year, making
it one of the Agency’s most common forms of service delivery. SSA intends to improve its
notices to ensure they are clear, concise, and easily understood. For example, SSA plans to
revise its SSI post-eligibility notices to show the new payment amount and eliminate duplicate
charts.

Online Services: One of SSA’s priorities is to provide the public more service options through a
wide range of online services. In FY 2012, SSA released an online Spanish retirement
application and a new online version of the Social Security Statement, which provides eligible
workers access to their Social Security earnings and benefit information. SSA also enhanced
electronic services for claimant representatives, such as improving the online appeals application
(iAppeals). According to SSA, each online application saves about 15 minutes. Further, starting
in April 2012, individuals applying for disability benefits were able to electronically sign and
submit an authorization to disclose medical information, which will help process claims faster.


FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                    8
SSA reports, on average, this should reduce the disability application process by 9 days per
claim.

SSA continues expanding its nation-wide marketing campaign for its Internet services through
public service announcements on television, radio, billboards, and buses as well as in airport
terminals to promote online services. The Agency also uses social media, such as Facebook,
Twitter, and YouTube, to direct the public to its online service options.

In FY 2012, SSA reported that 44 percent of initial Social Security disability, retirement,
spouses, and Medicare claims were filed online. According to the American Customer
Satisfaction Index, SSA has the two highest-rated electronic services in the Government.
Further, three of SSA’s online services outperformed or tied Amazon, the highest-scoring
electronic retail Website.

Telephone Services: SSA serves over 60 million people per year over the telephone. SSA is
replacing its national 800-number infrastructure with a new system, the Citizen Access Routing
Enterprise Through 2020. SSA reports the new technology will help eliminate lengthy
navigation menus, better forecast call volumes, anticipate staffing needs, and distribute incoming
calls across the network so callers can reach an agent more quickly. It will also offer callers the
opportunity to hang up and receive a return call from SSA when wait times exceed 3 minutes.

Video Services: SSA is expanding its video services for individuals living in rural areas or
places without public transportation. Video services enable the Agency to provide service to
people at such sites as hospitals, libraries, community centers, American Indian Tribal centers,
and homeless shelters. Video services also increase service availability and help reduce travel
costs and lost work hours.

Direct Deposit: SSA performs integrity reviews on direct deposit transactions processed in its
program applications. In reaction to recent fraudulent activity in the direct deposit area, SSA has
moved from a monthly to a weekly review of direct deposit integrity reviews.

Representative Payee Program: SSA piloted a new program in FY 2012 to ensure individuals
convicted of committing or attempting to commit certain crimes do not serve as a representative
payee. To increase the number of representative payees who submit timely wage reports, the
Agency mailed notices to certain representative payees for working SSI recipients and
encouraged the representative payees to report wages via an automated telephone wage reporting
system. Further, SSA stated it issued reminders to its employees to follow representative payee
program policy, and agreed to work with problem payees to correct deficiencies identified during
audits.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                      9
Invest in Information Technology Infrastructure to Support
               Current and Future Workloads
CHALLENGE: SSA faces major challenges to mitigate a material weakness in its logical
access controls, provide additional electronic services to meet the growing needs of its
customers, and strategically plan to modernize its systems.

SSA faces the challenge of how best to use technology to meet its increasing workloads with
limited budgetary and human resources. Further, SSA will not be able to manage its current and
future workloads without the proper IT infrastructure. The Agency uses a variety of
technologies, including telephone service, the Internet, and videoconferencing to deliver service
to its customers. We have concerns regarding the Agency’s IT physical infrastructure; logical
access controls and security of sensitive information; development of electronic services, and
strategic IT planning.

IT Physical Infrastructure: SSA’s National Computer Center (NCC), built in 1979, houses the
infrastructure that supports the Social Security programs provided to the public and other
services provided to Federal, State, international, and private agencies. Increased workloads and
growing telecommunication services have strained the NCC’s ability to support the Agency’s
business. SSA’s primary IT investment over the next few years is the replacement of the NCC.
However, the Agency has projected that its new facility will not be operational until 2016.

Logical Access Controls and Security of Sensitive Information: SSA’s FY 2009, 2010, and
2011 Financial Statement Audits identified a significant deficiency in the Agency’s control of
access to its sensitive information. For example, SSA did not consistently comply with policies
and procedures to periodically reassess the content of security access given to its employees and
contractors. Moreover, some employees and contractors had greater access to systems than they
needed to perform their jobs. Additionally, certain configurations increased the risk of
unauthorized access to key financial data and programs. Although SSA had taken some steps to
address these issues, the FY 2012 Financial Statement Audit raised the deficiency to a material
weakness in internal control related to information security in the areas of monitoring, logical
access, and configuration controls.

Development of Electronic Services: SSA must provide additional electronic services to meet
its customers’ growing needs. Because of the economic times and baby boom generation
retirements, more individuals are filing for retirement and disability benefits. SSA must find
ways to expand easy-to-use and secure electronic services for its customers. In FY 2012, the
Agency planned to increase the percentage of claims filed online to 42 percent. At the end of
FY 2012, 44 percent of claims was filed electronically.

In FY 2013, the Agency plans to increase its online filings to 48 percent. In December 2009,
Commissioner Astrue testified that to keep field offices from being overwhelmed by increasing
workloads, the Agency would need to increase electronic filing to 50 percent by 2013. SSA’s
performance plan for FY 2013 is 2 percentage points fewer than what the Commissioner stated.
Additionally, SSA has a customer service plan, but this plan does not include long-term
strategies to develop and implement electronic services.


FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                    10
Strategic IT Planning: Under the current budget environment, it is crucial for SSA to ensure its
IT investments are properly guided by its strategic planning and investment control processes to
help ensure the Agency receives the full functionality and cost savings as expected and prevents
duplication of efforts or waste. SSA must develop and maintain an Information Resources
Management (IRM) Strategic Plan that supports the Agency’s Strategic Plan. In addition, the
strategic IT planning process should drive performance improvements to save money and avoid
cost through collaboration, reuse, productivity enhancements, and elimination of redundancy.

Our prior audit work in this area found that although SSA had a 5-year IRM plan, SSA’s IT
planning process only spans 2 years. In addition, the IRM did not provide a clear IT blueprint,
define IT resource requirements, and address all critical future challenges. Furthermore, SSA did
not have a strategic plan to convert its legacy application programs to a more modernized
programming language. Moreover, we believe SSA’s IRM for FYs 2012 through 2016 is still
tactical in nature and does not provide a clear vision of the IT infrastructure that will be needed
to support the Agency’s programs 5 to 10 years in the future. Lastly, we believe the IRM lacks
any tangible or measurable goals.

SSA’s Strategic Human Capital Plan for FYs 2008 through 2013 and its Human Capital
Implementation Plan Fiscal Year 2012 did not provide a projection of future IT Specialist
requirements. For example, SSA has not strategically planned for the loss of IT expertise needed
to maintain or improve its legacy systems.

In addition, SSA should explore opportunities for savings, such as moving appropriate services
to an external cloud as part of its IT strategic planning.

Agency Actions
IT Physical Infrastructure: SSA has taken steps to address its IT infrastructure challenge. The
Agency continues taking actions to address the NCC’s sustainability through 2016. For
example, SSA conducts recurring inspections of its infrastructure—performing hourly, daily, and
weekly tours of the buildings and facility equipment as well as an “annual building walk-around”
with technical experts to determine repairs or future replacement projects for the building,
grounds, and equipment.

In February 2009, SSA received $500 million in American Recovery and Reinvestment Act
(Pub. L. No. 111-5) funding to replace its NCC. The General Services Administration (GSA)
selected a site for SSA’s new data center in June 2011 and purchased it in August 2011. GSA
and SSA also developed a Program of Requirements. In January 2012, GSA and SSA awarded a
contract for the design and construction of a new data center. This was 2 months ahead of
GSA’s revised project management plan. The planned completion of construction is
December 2014. After completion of construction and commissioning, IT migration to the new
data center will take an additional 18 months. The new data center is expected to be operational
in 2016.

SSA also has a Second Support Center that the Agency occupied in January 2009. The Second
Support Center can recover all Agency mission-critical workloads, with the exception of some of
the disability workloads, should the NCC become unavailable.


FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                     11
Logical Access Controls and Security of Sensitive Information: SSA stated that it issued and
implemented several policies and procedures related to logical access controls and the security of
sensitive information. In addition, SSA stated that it has implemented a Web-based tool for
automating SSA’s review process for access to sensitive information. SSA stated that it plans to
use this tool for the Agency’s triennial certification for access to sensitive information and the
periodic review of security access content. SSA plans to complete this Agency-wide rollout of
the tool in October 2012. Additionally, SSA stated that it assembled a workgroup to address the
access control weaknesses identified as a significant deficiency in past years, which was elevated
to a material weakness in FY 2012.

Development of Electronic Services: To address this challenge and reduce the workload in
field offices, SSA offers 30 electronic services. Further, SSA has researched Internet
authentication solutions to secure online initiatives, such as Ready Retirement, replacement
Social Security number (SSN) cards, and other automated services. In May 2012, SSA
introduced a new Internet process to register and authenticate members of the public who wish to
use the Agency’s online applications. The public can use this new authentication process when
logging into the Agency’s Webpage called MySocialSecurity. The MySocialSecurity Webpage
allows the public to request a Social Security Statement online. The “electronic access” provides
a secure, convenient, and user-friendly method for the public to register and gain access to SSA’s
online services to conduct business with the Agency instead of visiting the local servicing office
or requesting information over the telephone. In December 2012, the Agency plans to
incorporate its Internet Benefit Verification, Direct Deposit, Change of Address, and Check Your
Benefit applications to its MySocialSecurity Webpage.

Strategic Planning: SSA issued its Agency Strategic Plan (ASP) in February 2012 that
documents its missions, strategic goals, and strategies for FYs 2013 through 2016. The ASP
outlines the Agency’s goals and provides a snapshot of how SSA plans to achieve them. It also
highlights key measures the Agency will use to monitor progress.

SSA issued its IRM in May 2012 for FYs 2012-2016. The IRM provides direction for the
Agency to effectively prioritize and manage its investments in IT and information management
toward the achievement of SSA’s mission and business outcomes. The IRM focuses on SSA’s
IT governance efforts and its primary IT infrastructure domains. The IRM briefly discusses
SSA’s current IT state and provides high-level plans for each domain areas, such as Data
Management, Software/Applications, Business Intelligence, Computing Platforms, Network
Infrastructure, and Storage Infrastructure. The Agency recognizes it is facing a challenging
budgetary environment and increasingly difficult choices for new investments.

Finally, SSA’s Strategic Human Capital Plan for FYs 2008 through 2013 identified the IT
Specialist job series (2210) as mission-critical as well as the competencies needed for this job
series to enable SSA to develop its workforce and improve its retention strategies.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                      12
       Strengthen the Integrity and Protection of the Social
                        Security Number
CHALLENGE: Protecting the SSN and properly posting the wages reported under SSNs
are critical to ensuring eligible individuals receive the full benefits they are due.

In FY 2012, SSA completed approximately 5.5 million original and 11 million replacement SSN
cards and recorded approximately $585 billion in employment taxes related to earnings under
assigned SSNs. Protecting the SSN and properly posting the wages reported under SSNs are
critical to ensuring SSN integrity and eligible individuals receive the full benefits due them.

SSN Use: The SSN is heavily relied on as an identifier and is valuable as an illegal commodity.
Accuracy in recording workers’ earnings is critical because SSA calculates future benefit
payments based on the earnings an individual accumulates over his/her lifetime. As such,
properly assigning SSNs only to those individuals authorized to obtain them, protecting SSN
information once the Agency assigns the numbers, and accurately posting the earnings reported
under SSNs are critical SSA missions.

SSN Misuse: To its credit, SSA has implemented numerous improvements in its SSN
assignment, or enumeration process. However, given the preponderance of SSN misuse and
identity theft in U.S. society, we continue to believe protection of this critical number is a
considerable challenge for SSA, as well as its millions of customers. Unfortunately, once SSA
assigns an SSN, it has no authority to control the collection, use, and protection of these numbers
by other entities. Our audit and investigative work have shown that the more SSNs are
unnecessarily used, the higher the probability that they could be used to commit crimes
throughout society. The Federal Trade Commission estimated that as many as 9 million
Americans have their identities stolen each year.

We remain concerned about SSN misuse by noncitizens who are not authorized to work in the
United States, as well as the misuse of children’s SSNs for work and identity theft purposes. As
such, our planned 2013 audits will address these issues and certain SSA enumeration processes.

Death Master File: In May 2012, the Inspector General testified before the Subcommittees on
Oversight and Social Security, Committee on Ways and Means, regarding ways to improve SSN
protection and guard against misuse, identity theft, and tax fraud. As mentioned in his
testimony, the SSNs of deceased individuals are also vulnerable to misuse. As such, the public
release of SSA’s Death Master File (DMF) raises concerns. Each DMF record usually includes a
deceased individual’s SSN, full name, date of birth, and date of death. The file contains about
86 million records, and it adds about 1.1 million records each year. While the DMF has
important and productive uses, our investigations show that individuals can use available death
data to obtain SSNs and commit fraud. To the extent possible, we believe SSA should limit
public access to the DMF to only what is required by law and take all steps to ensure its
accuracy.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                      13
Earnings: Properly posting earnings ensures eligible individuals receive the full retirement,
survivors, and/or disability benefits due them. SSA’s programs depend on earnings information
to determine whether an individual is eligible for benefits and to calculate the amount of benefit
payments. If employers report earnings information incorrectly or not at all, SSA cannot ensure
all individuals entitled to benefits are receiving the correct payment amounts.

SSA spends scarce resources correcting earnings data when employers report incorrect
information. The Earnings Suspense File (ESF) is the Agency’s repository of wage reports on
which wage earners’ names and SSNs fail to match SSA’s records. Per the latest available data,
the ESF had accumulated about $993 billion in wages and 313 million wage items for
Tax Years 1937 through 2009. In Tax Year 2009 alone, 7.7 million wage items representing
$73 billion were posted to the ESF.

Agency Actions
SSA has implemented numerous improvements in its SSN assignment, or enumeration process.
Some of SSA’s more notable recent enumeration improvements include

•   establishing enumeration centers in some States—most recently, the Manhattan Social
    Security Card Center—that focus exclusively on assigning SSNs and issuing SSN cards;

•   implementing a new SSN assignment methodology called SSN Randomization; and

•   addressing internal control weaknesses we identified in the Agency’s process for issuing
    SSN Printouts.

These actions include implementing a pilot study in three SSA offices and one card center in
which applicants must provide stringent, more reliable identity documents before obtaining an
SSN Printout. Additionally, the Agency is implementing improved monitoring tools to track the
SSN Printout workload.

Social Security Number Verification Service: SSA has taken steps to reduce the size and
growth of the ESF. The Agency offers employers the ability to verify the names and SSNs of
their employees using the Agency’s Social Security Number Verification Service, which is an
online verification program, before reporting wages to SSA. In FY 2012, approximately
40,000 registered employers submitted about 102 million verifications.

E-Verify: SSA also supports the Department of Homeland Security in administering the
E-Verify program, which assists employers in verifying the employment eligibility of newly
hired employees. As of FY 2012, over 404,000 employers had enrolled to use E-Verify, and
these employers had submitted almost 23 million queries during this period. Additionally, about
84,500 transactions were processed through the E-Verify Self-Check Service, which is an
Internet-based application that allows U.S. workers to check their own employment eligibility.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                      14
While SSA cannot control all the factors associated with erroneous wage reports, it may be able
to improve wage reporting by informing employers about potential SSN misuse cases,
identifying and resolving employer reporting problems, encouraging greater use of the Agency’s
employee verification programs, and enhancing the employee verification feedback to provide
employers with sufficient information on potential employee issues. SSA can also improve
coordination with other Federal agencies with separate, yet related, mandates. For example, the
Agency needs to work with the Internal Revenue Service to achieve more accurate wage
reporting.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                  15
              Improve Transparency and Accountability
CHALLENGE: SSA faces a number of challenges ensuring accountability, including
concerns over its internal controls, systems security, and administrative cost allocations. SSA
continues to lack a full set of performance indicators that measure whether the Agency is
meeting all its strategic goals.

There have been a number of efforts to make Federal agencies more transparent and accountable.
The Chief Financial Officers Act of 1990 (Pub. L. No. 101-576) provides for the production of
complete, reliable, timely, and consistent financial information for use by the executive branch
of the Government and Congress in the financing, management and evaluation of Federal
programs. The Government Performance and Results Act of 1993 (GPRA) (Pub. L. No. 103-62)
and the GPRA Modernization Act of 2010 (Pub. L. No. 111-352) seek to improve Federal
program effectiveness and public accountability by focusing on results, service quality, and
customer satisfaction. More recently, OMB issued the Open Government Directive, which
requires Federal agencies to improve the quality of Government information, publish
Government information online, create and institutionalize a culture of open Government, and
create an enabling policy framework for open Government.

Federal Managers’ Financial Integrity Act: OMB Circular A-123, Revised, Management’s
Responsibility for Internal Control, defines internal control as “…tools to help program and
financial managers achieve results and safeguard the integrity of their programs.” The Circular
provides guidance on using the range of tools at the disposal of agency managers to achieve
desired program results and meet the requirements of the Federal Managers’ Financial Integrity
Act of 1982 (FMFIA) (Pub. L. No. 97-255). FMFIA encompasses accounting and administrative
controls, including program, operational, and administrative areas as well as accounting and
financial management.

In the FY 2012 Independent Auditor’s Report, the auditors reported a material weakness and a
significant deficiency in internal control. The full text of the report can be found in SSA’s
Performance and Accountability Report. We summarize the two control weaknesses below.

Monitoring Activities and Overall Control Environment: The Agency faces a challenge in
monitoring its activities and the overall control environment. This challenge is the aggregate of
several issues that can be summarized into two categories—lack of timeliness and lack of
appropriate documentation. SSA lacked timeliness in completion of quality review feedback
forms, follow-up on Comprehensive Integrity Reviews Process System reviews, and
consideration and resolution of prior year audit findings. SSA’s lack of appropriate
documentation includes areas of disability reviews, various approvals for certain transactions,
and overpayment detection and associated waivers. Many of these areas are recurring issues that
have accumulated over the past three Financial Statement Audits. However, there has not been
meaningful improvement in resolving the issues. The FY 2012 Financial Statement Audit testing
continued to identify monitoring activities and the overall control environment to be a concern.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                     16
Information Security: For the past 2 years, the auditor reported a significant deficiency in
SSA’s internal control over information security in its Opinion on Management’s Assertion
about the Effectiveness of Internal Control. The auditors have escalated the deficiency this year
and have determined there is a material weakness in internal control related to information
security in the areas of monitoring, logical access, and configuration controls. Specifically, SSA
lacked monitoring controls related to policy on configuration of information; policy on content
on SSA’s Intranet Webpage; and high-risk programs operating on the mainframe. In addition,
SSA lacked appropriate controls to identify high-risk programs; prevent programmer access to
the production environment; and create a comprehensive profile and access recertification
program. Lastly, the vulnerability testing conducted by the Agency was determined to be
insufficient for the identification of critical weaknesses in the IT environment. Each deficiency
listed above represents a serious information system security risk; the combination of all these
control deficiencies raises the risk to the level of a material weakness.

Administrative Cost Allocation: We also believe SSA can bring greater accountability to its
administrative cost allocation. The Social Security Act (Pub. L. No. 74-271) authorizes SSA to
allocate administrative costs to the four Trust Funds for which it provides administrative support:
Retirement and Survivors, Disability, Hospital, and Supplementary Medical Insurance. SSA
uses its Cost Analysis System (CAS) to allocate administrative costs to these four Trust Funds
and general fund programs administered by SSA, such as the SSI program.

In FY 2012, our contractor completed a series of audits that examined SSA’s CAS. Our
contractor found CAS has certain risks that SSA needs to address to ensure it provides viable
calculations of SSA’s administrative costs. For example, SSA had not updated the CAS cost
allocation methodology in over 30 years to account for changes in business processes, system
technology, or Federal accounting standards. The failure to periodically revisit and update the
cost allocation methodology could result in costing assumptions and cost factors that are no
longer valid or accurate. Consequently, the equitable and appropriate allocation of SSA’s
administrative costs to the Trust Funds could be at risk.

Agency Actions
SSA has taken steps to implement the Open Government Directive, which is focused on
increasing transparency within the Government. SSA released its first Open Government Plan in
2010 and an updated Plan in 2012. SSA has continued updating its Open Government Website.
SSA had also released 41 different datasets on Data.gov as of the end of FY 2012. These
datasets are accessible by the public.

SSA has also increased access to information through online applications. For example, in
May 2012, the Commissioner announced the release of an online version of the Social Security
Statement. The new online Statement provides eligible workers with secure and convenient
access to their Social Security earnings and benefit information.

In response to this report, SSA reported to us the following.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                     17
       The Comprehensive Integrity Review Process (CIRP) system selects
       approximately 440,000 cases for review in a given year. Over the years, the
       agency has steadily improved our timeliness of integrity reviews. In FY 2010, we
       timely certified approximately 94.5 percent of integrity reviews, with 99.5 percent
       completed within 60 days. In FY 2011, we timely certified 95.4 percent of CIRP
       cases selected for review, with 99.5 percent completed within 60 days. For
       FY 2012, we timely certified 95.9 percent of integrity reviews, with 99.5 percent
       completed within 60 days. Operational counterparts, in consultation with the
       Office of Information Security, send reminders to Regional Centers for Security
       & Integrity (CSI) staff emphasizing the importance of completing CIRP reviews
       in a timely manner. CSI staff, in turn, notifies offices with overdue integrity
       reviews. CIRP pending reports are also monitored closely to ensure that integrity
       reviews are certified timely.

Although SSA provided us with this information, we have not audited CIRP. Our financial
statement auditors performed a limited review of CIRP, but were unable to determine the
average number of days CIRPs were outstanding, how long it took to move CIRPs into
investigation, or the completion rate.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                    18
              Strengthen Strategic and Tactical Planning
CHALLENGE: While SSA has plans to address its operations in the next 4 to 5 years, it
does not have strategic or tactical plans that address how the Agency will operate beyond
5 years. While near-term planning is important, SSA needs long-range plans that address long-
term challenges, including a rising workload, a decrease in experienced staff, overly complex
program policies, and a rising need to provide more services electronically.

Rising Workload: The number of individuals filing for benefits has increased, and SSA
predicts it will continue to increase by the millions. The Agency estimates that 80 million
individuals, most from the baby boomer generation, will file for benefits over the next 20 years.
The population applying for benefits will expect SSA to provide a greater number of services
electronically. SSA realizes that it needs to rely more on technology not only to meet customer
expectations but to keep up with a rising workload.

Fewer Experienced Staff: As workloads rise, a greater proportion of SSA’s workforce will
become eligible to retire; 19 percent of SSA’s employees are eligible. In FY 2015, 33 percent of
SSA’s employees will be eligible to retire, and by FY 2020, this number will increase to
45 percent. While not every employee retires as soon as he/she is eligible to do so, SSA predicts
that 28 to 36 percent of its workforce will retire over the next 10 years. Given the expectation of
leaner future budgets, SSA needs to plan to meet its mission with fewer resources.

Social Security Advisory Board Report: At a time when SSA needs to plan to do more with
less, SSA lacks long-term plans in a number of critical areas. In its report, The Social Security
Administration: A Vision of the Future, the Social Security Advisory Board concluded that SSA
needed to develop an innovative service delivery plan that reflected the service options currently
available and anticipate those that will emerge in the next 10 years. It recommended that SSA
take multiple steps to ensure success in 2020, including rethinking its service delivery strategy,
performing a comprehensive review of program policy to reduce complexity, establishing a
Systems Modernization Plan, and developing a Human Capital Plan.

Information Technology Strategic Planning: In our report, The Social Security
Administration’s Information Technology Strategic Planning, we stated that SSA did not have a
comprehensive Agency Information Infrastructure Plan to meet potential processing needs for
the next 20 years or that would allow the Agency to recover quickly if one or more major
components of its processing infrastructure failed or was destroyed. While SSA has an IT
planning process, the process is decentralized, and SSA officials agreed that it needed to be
strengthened.

Customer Service Delivery Planning: In our report, The Social Security Administration’s
Customer Service Delivery Plan, we concluded SSA did not have a long-term customer service
delivery plan. We noted that SSA must develop such a plan that serves as a roadmap for
ensuring the Agency is technologically and structurally prepared with appropriate staff to operate
its program in the future. The plan should also describe how the Agency is preparing to address
increased workloads and service delivery in an electronic environment. The plan must identify




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                      19
what the service delivery environment will be in the future, including what services customers
will expect and how they will want to receive services.

Agency Actions
SSA has produced multiple planning documents, including those required by GPRA and the
GPRA Modernization Act of 2010. These laws mandate that Federal agencies draft strategic and
annual performance plans to help improve service delivery by requiring that Federal managers
plan to meet program objectives.

The Agency has FY 2008 through 2013 and FY 2013 through 2016 strategic plans and an
Information Resources Management Strategic Plan. These plans cover periods of 4 to 5 years.
SSA also has a Strategic Human Capital Plan. This plan does not define the timeframe it
addresses, but it states that it is aligned with the Agency’s Strategic Plan. The most current
Agency Strategic Plan addresses a 4-year period. While planning for the next few years is
important, SSA needs a longer-term vision to ensure the Agency has the programs, processes,
staff, and infrastructure required to provide needed services in the future.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                    20
                                   APPENDICES
APPENDIX A – Acronyms

APPENDIX B – Related Office of the Inspector General Reports

APPENDIX C – Office of the Inspector General Contacts




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)
                                                                                       Appendix A

Acronyms
 ALJ                Administrative Law Judge
 ASP                Agency Strategic Plan
 CAS                Cost Analysis System
 CDI                Cooperative Disability Investigations
 CDR                Continuing Disability Review
 CY                 Calendar Year
 DCPS               Disability Case Processing System
 DDS                Disability Determination Services
 DMF                Death Master File
 ESF                Earnings Suspense File
 FMFIA              Federal Managers’ Financial Integrity Act of 1982
 FY                 Fiscal Year
 GPRA               Government Performance and Results Act of 1993
 GSA                General Services Administration
 IPERA              Improper Payments Elimination and Recovery Act of 2010
 IRM                Information Resources Management
 IT                 Information Technology
 NHC                National Hearing Center
 NCC                National Computer Center
 OASDI              Old-Age, Survivors and Disability Insurance
 OMB                Office of Management and Budget
 PI                 Performance Indicator
 Pub. L. No.        Public Law Number
 SSA                Social Security Administration
 SSI                Supplemental Security Income
 SSN                Social Security Number
 Strategy           Strategy to Address Increasing Initial Disability Claim Receipts
 VTC                Video Teleconferencing




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                   A-1
                                                                                Appendix B

Related Office of the Inspector General Reports

        Management Challenge Area, Report Title, and                               Report
              Common Identification Number                                         Issued

                 Reduce the Hearings Backlog and Prevent its Recurrence


 Office of Disability Adjudication and Review’s Process for Scheduling
 Hearings When Cases are in “Ready to Schedule” Status                      August 21, 2012
 (A-08-12-21293)

 Congressional Response Report: Current and Expanded Use of Video
                                                                            June 18, 2012
 Hearings (A-05-12-21287)

 Availability and Use of Vocational Experts (A-12-11-11124)                 May 30, 2012

 The Role of National Hearing Centers in Reducing the Hearings
                                                                            April 3, 2012
 Backlog (A-12-11-11147)

 Congressional Response Report: The Social Security Administration’s
                                                                            March 19, 2012
 Review of Administrative Law Judges’ Decisions (A-07-12-21234)

 Congressional Response Report: Oversight of the Year-end Hearings
                                                                            March 7, 2012
 Process (A-05-12-21254)

 Congressional Response Report: Oversight of Administrative Law
                                                                            February 14, 2012
 Judge Workload Trends (A-12-11-01138)

 Training of New Administrative Law Judges at the Office of Disability
                                                                            October 13, 2011
 Adjudication and Review (A-12-11-11126)




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                   B-1
        Management Challenge Area, Report Title, and                                Report
              Common Identification Number                                          Issued

               Improve the Timeliness and Quality of the Disability Process

 Administrative Costs Claimed by the Mississippi Disability
                                                                            September 14, 2012
 Determination Services (A-08-12-11294)
 Administrative Costs Claimed by the Virginia Disability
                                                                            August 27, 2012
 Determination Services (A-03-12-11207)

 Puerto Rico Disability Determination Program (A-06-11-01132)               June 21, 2012

 Disabled Individuals Potentially Eligible as Auxiliary Child
                                                                            June 12, 2012
 Beneficiaries (A-13-10-10146)

 New York State Disability Determination Program Indirect Costs
                                                                            May 21, 2012
 (A-02-11-11135)

 Administrative Costs Claimed by the North Carolina Disability
                                                                            May 14, 2012
 Determination Services (A-04-11-01115)

 Resolving Issues Identified During the Social Security
 Administration’s Quality Reviews of Disability Determinations              April 26, 2012
 (A-01-11-11119)

 Administrative Costs Claimed by the Oregon Disability Determination
                                                                     April 25, 2012
 Services (A-09-11-11163)

 Administrative Costs Claimed by the North Dakota Disability
                                                                            April 9, 2012
 Determination Services (A-06-11-11159)

 Administrative Costs Claimed by the Iowa Disability Determination
                                                                            April 3, 2012
 Services (A-07-11-11184)

 Unnecessary Medical Determinations for Supplemental Security
                                                                            February 21, 2012
 Income Disability Claims (A-01-10-20120)

 Health Information Technology Provided by Beth Israel Deaconess
                                                                            October 13, 2011
 Medical Center and MedVirginia (A-01-11-11117)

 Administrative Costs Claimed by the Maine Disability Determination
                                                                            October 12, 2011
 Services (A-01-11-11109)




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                    B-2
        Management Challenge Area, Report Title, and                                Report
             Common Identification Number                                           Issued

           Reduce Improper Payments and Increase Overpayment Recoveries

 Congressional Response Report: Supplemental Security Income
 Recipients with Automated Teller Machine Withdrawals Outside the           September 27, 2012
 United States (A-01-11-01122)

 The Social Security Administration’s Foreign Enforcement
                                                                            September 14, 2012
 Questionnaires (A-13-10-11098)

 Management Advisory Report: Supplemental Security Income
                                                                            August 7, 2012
 Payments to Multi-recipient Households (A-06-09-29149)

 Using Medicare Claim Data to Identify Deceased Beneficiaries
                                                                            August 2, 2012
 (A-08-09-19105)

 Significance of Administrative Finality in the Social Security
                                                                            July 26, 2012
 Administration’s Programs (A-08-11-21107)

 The Accuracy of the Garnishment of Title II Benefits by the Social
 Security Administration’s Court Ordered Garnishment System                 July 19, 2012
 (A-15-10-21063)

 Beneficiaries Who Had Not Cashed Their Social Security Checks
                                                                            July 19, 2012
 Within 1 Year (A-09-10-20133)

 Controls over Old-Age, Survivors and Disability Insurance
 Replacement Checks for Beneficiaries Who Double Negotiated                 July 18, 2012
 Benefit Checks (A-02-10-10127)

 Supplemental Security Income Recipients Who Did Not Report Their
                                                                            April 16, 2012
 Marriage to the Social Security Administration (A-01-10-11020)

 Annual Earnings Test Underpayments Payable to Beneficiaries
                                                                            April 6, 2012
 (A-09-11-11128)

 Spousal Beneficiaries Who Reported They Were Entitled To a
                                                                            March 21, 2012
 Government Pension (A-09-10-21071)

 The Social Security Administration’s Compliance with the Improper
 Payments Elimination and Recovery Act of 2010 in the Fiscal Year           March 14, 2012
 2011 Performance and Accountability Report (A-15-12-11244)

 Concurrent Beneficiaries Released from Incarceration Whose Title II
 Benefits Have Not Been Reinstated                                          March 13, 2012
 (A-01-11-21168)

FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                    B-3
        Management Challenge Area, Report Title, and                                Report
             Common Identification Number                                           Issued

 Supplemental Security Income Recipients Receiving Social Security-
                                                                            February 22, 2012
 administered Payments in Excess of Federal Limits (A-06-10-21066)

 Follow-up: Individuals Receiving Benefits Under Multiple Social
                                                                            January 13, 2012
 Security Numbers at Different Addresses (A-01-11-11145)
 The Social Security Administration’s Reporting of High-dollar
 Overpayments Under Executive Order 13520 in Fiscal Year 2011               December 30, 2011
 (A-15-11-01140)
 Old-Age, Survivors and Disability Insurance Benefits Withheld
 Pending Supplemental Security Income Windfall Offset                       November 21, 2011
 (A-09-11-11130)
 Old-Age, Survivors and Disability Insurance Benefits Affected by
                                                                            November 9, 2011
 State or Local Government Pensions (A-13-10-10143)
 Follow-up: Individuals Receiving Benefits Inappropriately Under
 Multiple Social Security Numbers at the Same Address                       October 14, 2011
 (A-01-10-11008)
 Accuracy of Title II Survivors Benefit Transactions Greater Than
 $30,000 Processed Through the Manual Adjustment, Credit and                October 11, 2011
 Award Process System (A-04-10-10119)




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                  B-4
        Management Challenge Area, Report Title, and                               Report
              Common Identification Number                                         Issued
                                   Improve Customer Service

 Disabled Individuals with Mental Impairments in Need of a
                                                                            September 27, 2012
 Representative Payee (A-07-11-11110)
 The Gold Crest Care Center – An Organizational Representative
                                                                            August 6, 2012
 Payee for the Social Security Administration (A-02-11-11161)
 Direct Deposit Changes Initiated by the Social Security
 Administration’s National 800-Number Staff (Limited Distribution)          July 10, 2012
 (A-02-12-21272)
 Northview Village, Inc., an Organizational Representative Payee for
                                                                            June 21, 2012
 the Social Security Administration (A-07-11-01137)
 Benefit Payments Managed by Representative Payees of Children in
 Foster Care in the Social Security Administration’s Chicago Region         June 18, 2012
 (A-13-11-21105)
 Representative Payees’ Ability to Monitor the Individual Needs of a
                                                                            June 12, 2012
 Large Volume of Beneficiaries (A-04-11-11146)
 Restricted Countries: Controls over Internet Claim Applications and
                                                                            June 5, 2012
 Payments to Beneficiaries (A-05-10-20180)
 The Social Security Administration’s Triennial Site Reviews of Volume
                                                                       May 31, 2012
 Organizational Representative Payees (A-13-11-11127)
 Individual Representative Payees Who Misuse Benefits
                                                                            May 4, 2012
 (A-13-10-10182)
 Benefit Payments Managed by Representative Payees of Children in
                                                                            March 19, 2012
 the Florida State Foster Care Program (A-13-11-11173)
 South Dakota CARES, Inc., an Organizational Representative Payee
 for the Social Security Administration (Limited Distribution)              March 14, 2012
 (A-06-11-21189)
 Training at Offices that Make Disability Determinations
                                                                            March 14, 2012
 (A-01-11-21169)
 Dacotah Foundation, an Organizational Representative Payee for the
                                                                            March 9, 2012
 Social Security Administration (A-06-10-20174)
 The District of Columbia’s Child and Family Services Agency, an
 Organizational Representative Payee for the Social Security                March 2, 2012
 Administration (A-13-11-11149)
 Beneficiaries in Suspended Payment Status Pending the Selection of a
                                                                            February 13, 2012
 Representative Payee (A-09-10-11065)




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                    B-5
        Management Challenge Area, Report Title, and                               Report
              Common Identification Number                                         Issued
               Invest in Information Technology Infrastructure to Support
                              Current and Future Workloads
 Cloud Computing at the Social Security Administration
                                                                            September 24, 2012
 (A-14-12-11226)
 The Physical Security of the Social Security Administration’s
 Contractor Owned and Operated Off-Site Storage Facility                    September 14, 2012
 (A-14-12-11227)
 The Social Security Administration’s Implementation of the Future
 Systems Technology Advisory Panel’s Recommendations                        August 20, 2012
 (A-14-12-11222)
 Contractor Security of the Social Security Administration’s Homeland
                                                                            June 1, 2012
 Security Presidential Directive 12 Credentials (A-14-11-11106)
 State Disability Determination Services’ Employee and Contractor
                                                                            December 21, 2011
 Suitability Program (A-15-11-21180)
 Controls over Social Security Internet Benefit Applications (Limited
                                                                            December 7, 2011
 Distribution) (A-09-11-21165)
 Fiscal Year 2011 Evaluation of the Social Security Administration’s
 Compliance with the Federal Information Security Management Act of November 14, 2011
 2002 (A-14-11-01134)
 Follow-up: Physical Security at the Office of Disability Adjudication
 and Review’s Headquarters Building (Limited Distribution)             November 4, 2011
 (A-12-11-21190)
 The Social Security Administration’s Agency-wide Support Services
                                                                            October 28, 2011
 Contract with Lockheed Martin (A-14-10-11004)
 The Social Security Administration’s Electronic Services
                                                                            October 28, 2011
 (A-14-11-11112)
 The Social Security Administration’s eAuthentication Process
                                                                            October 14, 2011
 (A-14-11-11115)




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                  B-6
        Management Challenge Area, Report Title, and                                Report
              Common Identification Number                                          Issued
         Strengthen the Integrity and Protection of the Social Security Number

 Title II Deceased Beneficiaries Who Do Not Have Death Information
                                                                            July 9, 2012
 on the Numident (A-09-11-21171)
 Use of the E-Verify Program by the Social Security Administration’s
                                                                            March 8, 2012
 Contractors (A-03-11-11111)
 Internal Control Review over the Processing of Social Security
 Number Cards at the Second Support Center (Limited Distribution)           February 9, 2012
 (A-15-11-11176)
 Controls for Issuing Social Security Number Printouts
                                                                            December 13, 2011
 (A-04-11-11105)
 Collection, Use, and Disclosure of Social Security Numbers in States’
                                                                            November 28, 2011
 Newborn Screening Programs (A-08-11-11181)
 Follow-up: The Social Security Administration’s Program for Issuing
                                                                            November 23 , 2011
 Replacement Social Security Cards to Prisoners (A-08-10-10141)




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                   B-7
        Management Challenge Area, Report Title, and                               Report
              Common Identification Number                                         Issued
                         Improve Transparency and Accountability

 The Social Security Administration’s Plan to Reduce Improper
 Payments Under Executive order 13520, as reported in March 2012            September 27, 2012
 (A-15-12-12141)

 Administrative Payments Vendor File (A-06-11-01139)                        September 14, 2012

 Management Advisory Report: Single Audit of the Commonwealth of
 Puerto Rico Department of the Family for the Fiscal Year Ended June        September 11, 2012
 30, 2010 (A-77-12-00012)
 Management Advisory Report: Single Audit of the Commonwealth of
 Pennsylvania for the Fiscal Year Ended June 30, 2010                       September 7, 2012
 (A-77-12-00010)
 Management Advisory Report: Single Audit of the State of Alabama
                                                                            September 7, 2012
 for the Fiscal Year Ended September 30, 2010 (A-77-12-00011)
 CESSI, Division of Axiom Resource Management, Inc., Indirect Cost
 Rate Proposals for Fiscal Years 2009 and 2010 (Limited Distribution)       September 5, 2012
 (A-13-12-11249)
 The Social Security Administration’s PC Mall Gov, Incorporated,
                                                                            July 31, 2012
 Contract (A-14-11-01133)

 Management Advisory Report: Single Audit of the State of Illinois for
                                                                            July 31, 2012
 the Fiscal Year Ended June 30, 2010 (A-77-12-00009)

 American Recovery and Reinvestment Act of 2009 Funds Used for
                                                                            July 19, 2012
 Health Information Technology Contracts (A-15-11-11199)

 Management Advisory Reports: Single Audit of the State of New York
                                                                            July 18, 2012
 for the Fiscal Year Ended March 31, 2010 (A-77-12-00008)

 The Social Security Administration Cost Allocation Methodology
                                                                            June 18, 2012
 (A-15-10-20152)

 Risks Posed by Digital Photocopiers Used in Social Security
                                                                            May 17, 2012
 Administration Offices (A-06-11-11155)
 Contractors’ Reporting of Jobs Created or Retained Using American
 Recovery and Reinvestment Act Dollars in Fiscal Year 2011                  April 3, 2012
 (A-15-12-11214)
 Management Advisory Reports: Single Audit of the State of Tennessee
                                                                            April 3, 2012
 for the Fiscal Year Ended June 30, 2010 (A-77-12-00007)



FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                   B-8
        Management Challenge Area, Report Title, and                              Report
              Common Identification Number                                        Issued
 Collection of Back-up Withholding Taxes from Vendors
                                                                            April 3, 2012
 (A-03-10-11053)
 Management Advisory Report: Single Audit of the State of California
                                                                            March 15, 2012
 for the Fiscal Year Ended June 30, 2010 (A-77-12-00005)
 Management Advisory Report: Single Audit of the State of Wisconsin
                                                                            March 6, 2012
 for the Fiscal Year Ended June 30, 2010 (A-77-12-00006)

 Performance Indicator Audit: Improper Payments (A-15-11-11197)             March 1, 2012

 The Social Security Administration’s Implementation of the Open
                                                                            February 17, 2012
 Government Directive (A-02-10-20102)

 Management Advisory Report: Single Audit of the State of Arizona for
                                                                            February 16, 2012
 the Fiscal Year Ended June 30, 2010 (A-77-12-000004)

 Performance Indicator Audit: Customer Service (A-15-11-11183)              February 7, 2012

 Management Advisory Report: Single Audit of the State of Indiana for
                                                                            January 27, 2012
 the Fiscal Year Ended June 30, 2010 (A-77-12-00003)

 Management Advisory Report: Single Audit of the State of New Jersey
                                                                            December 21, 2011
 for the Fiscal Year Ended June 30, 2010 (A-77-12-00002)

 Management Advisory Report: Single Audit of the Commonwealth of
 Massachusetts for the Fiscal Year Ended June 30, 2010                      December 21, 2011
 (A-77-12-00001)

 The Social Security Administration Cost Allocation Process
                                                                            December 7, 2011
 (A-15-10-20151)

 Fiscal Year 2011 Financial Statement Audit Oversight
                                                                            November 7, 2011
 (A-15-11-11177)

 Fiscal Year 2011 Inspector General Statement on the Social Security
 Administration’s Major Management and Performance Challenges               November 4, 2011
 (A-02-12-11231)

 Congressional Response Report: The Social Security Administration’s
 Limitation on Administrative Expenses Appropriation’s Transfer             October 31, 2011
 Authority (A-15-11-01117)

 Controls for the Annual Wage Reporting Process (Limited
                                                                            October 18, 2011
 Distribution) (A-03-11-21162)


FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                   B-9
        Management Challenge Area, Report Title, and                              Report
              Common Identification Number                                        Issued
 Recovery Act Exchange Contract with Lovelace Clinic Foundation –
                                                                            October 13, 2011
 Contract SS00-10-60030 (A-15-11-11157)

 The Social Security Administration’s Recovery Act-Funded Contract
 with International Business Machines, Inc., Blanket Purchase               October 13, 2011
 Agreement SS00-08-40004, Call Order 51 (A-15-11-11113)

 MAXIMUS’ Incurred Cost Proposals for Fiscal Years 2004 and 2005
                                                                            October 11, 2011
 (Limited Distribution) (A-15-11-21129)

 Ahtna Engineering Services, LLC, Contract Number SS00-07-60063
                                                                            October 4, 2011
 (A-07-11-11140)




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                B-10
       Management Challenge Area, Report Title, and                                Report
             Common Identification Number                                          Issued
                         Strengthen Strategic and Tactical Planning

 The Social Security Administration’s Selection Process for Quick
                                                                            July 19, 2012
 Disability Determinations (A-15-11-11175)

 Contingency Plans to Maintain Operations if Delays Occur in the
 Construction of the Social Security Administration’s New Data              June 12, 2012
 Center (Limited Distribution) (A-14-12-11237)

 The Social Security Administration’s Software Modernization and
                                                                            May 17, 2012
 Use of Common Business Oriented Language (A-14-11-11132)




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                   B-11
                                                                                   Appendix C

Office of the Inspector General Contacts
Walter Bayer, Director                              Reduce the Hearings Backlog and Prevent its
                                                    Recurrence

Mark Bailey, Director                               Improve the Timeliness and Quality of the
                                                    Disability Process

Ron Gunia, Director                                 Reduce Improper Payments and Increase
Judith Oliveira, Director                           Overpayment Recoveries

Jim Klein, Director                                 Improve Customer Service
Shirley Todd, Director

Brian Karpe, Director                               Invest in Information Technology
                                                    Infrastructure to Support Current and Future
                                                    Workloads

Kim Byrd, Director                                  Strengthen the Integrity and Protection of the
Cylinda McCloud-Keal, Director                      Social Security Number

Victoria Vetter, Director                           Improve Transparency and Accountability


Tim Nee, Director                                   Strengthen Strategic and Tactical Planning

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or contact the
Office of the Inspector General’s Public Affairs at (410) 965-4518. Refer to Common
Identification Number A-02-13-13041.




FY 2012 IG Statement on SSA’s Major Management Challenges (A-02-13-13041)                     C-1
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
